U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 31, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

VF Jeanswear LP v. Equal Employment Opportunity Commission
S.CtNo. 19-446

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 1,
2019, and placed on the docket on October 3, 2019. The government's response is due on
November 4, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 4, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0446
VF JEANS WEAR LP
EEOC

JAMES M. POWELL
WOMBLE BOND DICKINSON (US) LLP
300 NORTH GREENE STREET
SUITE 1900
GREENSBORO, NC 27401
336-574-8081
JIMMY.POWELL@WBD-US .COM
JOSHUA WOODARD
SNELL & WILMER LLP
400 EAST VAN BUREN
PHOENIX, AZ 85004
602-382-6000
JWOODARD@SWLAW.COM

